APPENDICES

1a
APPENDIX A
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2020-2166
DECKERS OUTDOOR CORPORATION,
Plaintiff-Appellee,
v.
AUSTRALIAN LEATHER PTY LTD, ADNAN
OYGUR, DBA EDDIE OYGUR,
Defendants-Appellants.
Appeal from the United States District Court
for the Northern District of Illinois in
No. 1:16-cv-03676, Judge Manish S. Shah.
JUDGMENT
*

*

*

THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (PROST, Chief Judge, MOORE and
CHEN, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
May 7, 2021
Date

s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 16 CV 3676
DECKERS OUTDOOR CORP.,
Plaintiff/Counter-Defendant,
v.
AUSTRALIAN LEATHER PTY. LTD. and
ADNAN OYGUR a/k/a EDDIE OYGUR,
Defendants/Counter-Plaintiffs.
Filed September 13, 2018
Judge Manish S. Shah
MEMORANDUM OPINION AND ORDER
Deckers Outdoor Corp., the company that owns the
popular UGG brand, filed this lawsuit against Australian Leather Pty. Ltd., and its owner, Adnan Oygur, asserting claims for trademark and design patent infringement, because Australian Leather sells boots
called “ugg boots.” Defendants filed counterclaims and
affirmative defenses, asserting, among other things,
that Deckers’s trademarks containing the word UGG
should be canceled or that Deckers should be barred
from enforcing them. Defendants say that ugg is a generic term for a kind of sheepskin boot, one popularized
by Australian surfers in the 1970s, and therefore,
Deckers cannot stop them from calling their boots uggs
in the United States.

4a
The parties filed cross-motions for summary judgment on some of defendants’ counterclaims and affirmative defenses. For the reasons discussed below, Deckers’s motion is granted in part, denied in part, and Australian Leather’s motion is denied.
I.

Legal Standards

Summary judgment is appropriate if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(a). A genuine dispute
as to any material fact exists if “the evidence is such
that a reasonable jury could return a verdict for the
nonmoving party.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986). The party seeking summary
judgment has the burden of establishing that there is
no genuine dispute as to any material fact. See Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). “The ordinary standards for summary judgment remain unchanged on cross-motions for summary judgment: we
construe all facts and inferences arising from them in
favor of the party against whom the motion under consideration is made.” Blow v. Bijora, Inc., 855 F.3d 793,
797 (7th Cir. 2017). “Cross-motions must be evaluated
together, and the court may not grant summary judgment for either side unless the admissible evidence as a
whole—from both motions—establishes that no material facts are in dispute.”
Bloodworth v. Vill. of
Greendale, 475 F. App’x 92, 95 (7th Cir. 2012).
II. Analysis
Deckers and Australian Leather each move for
summary judgment on Australian Leather’s counterclaims for declaratory judgment that the mark UGG is
unenforceable and for cancellation of Deckers’s trade-

5a
mark registrations. Deckers moves for summary
judgment on Australian Leather’s counterclaims for
false designation of origin, false statements in violation
of the Lanham Act, fraudulent procurement of trademark registrations, a violation of the Illinois Uniform
Deceptive Trade Practices Act, and a violation of the
Illinois Consumer Fraud and Deceptive Business Practices Act. Deckers also moves for summary judgment
on four of Australian Leather’s1 affirmative defenses
that have overlapping issues with the subject counterclaims: that ugg is a generic term in the U.S., that it is
generic in Australia, that it should be treated as generic in the U.S. pursuant to the foreign equivalents doctrine, and that Deckers fraudulently obtained its
trademark registrations.
A. Generic Status and the Foreign Equivalents
Doctrine
A generic term is one which is commonly used as
the name or description of a kind of good. Miller Brewing Co. v. G. Heileman Brewing Co., Inc., 561 F.2d 75,
79 (7th Cir. 1977) (citing William R. Warner & Co. v.
Eli Lilly & Co., 265 U.S. 526, 528 (1924)). And a generic term “cannot become a trademark under any circumstances.” Id. Though a federally registered trademark
is presumptively valid, 15 U.S.C. § 1115, if at any time a
“registered mark becomes the generic name for the
goods or services,” an affected party can petition to
cancel the registration. 15 U.S.C. § 1064(3). In determining whether a mark has become generic, the “primary significance of the registered mark to the relevant public rather than the purchaser motivation shall
1

Because, as relevant here, Australian Leather and Oygur’s
affirmative defenses are the same, I refer to them collectively as
Australian Leather.

6a
be the test.” Id. Under the doctrine of foreign equivalents, one cannot obtain a trademark over a foreign generic word if the trademark designation “would prevent competitors from designating a product as what it
is in the foreign language their customers know best.”
Otokoyama Co. Ltd. v. Wine of Japan Import, Inc., 175
F.3d 266, 271 (2d Cir. 1999). Australian Leather argues
that the term ugg is generic in the United States both
because American surfers understood the term to refer
to sheepskin boots generally and because its generic
status in Australia, combined with the foreign equivalents doctrine, warrants generic status in the United
States.2
1.

The UGG Brand

Brian Smith, who was born in Australia and moved
to the United States in 1978, founded the sheepskinboot company known today as UGG. [189] ¶¶ 5, 10.3
2

Both parties raise objections throughout that relate to the
relevance of evidence presented. Many of these objections stem
from the parties’ central disagreement about how to define the
relevant class of purchasers, which matters when considering consumer perceptions to determine whether the term was generic.
For reasons discussed below, I conclude that the relevant consumer perceptions are those of American footwear consumers generally. For that reason, evidence from non-surfer consumers is relevant. And though the test centers on American perceptions, the
Australian experience is not irrelevant to that determination. See
G. Heileman Brewing Co. v. Anheuser-Busch, Inc., 873 F.2d 985,
1000 n. 15 (7th Cir. 1989). Because many early players in the
American sheepskin boot business had ties to Australia, this information provides helpful context. As to the relevant time period, a trademark is subject to cancellation at any time if it becomes
generic. As a result, post-1979—the date Deckers asserts it first
used the UGG trademark—evidence is relevant as well.
3

Bracketed numbers refer to entries on the district court
docket. Referenced page numbers are taken from the CM/ECF

7a
Smith owned a pair of sheepskin boots while still living
in Australia, and he and others referred to them generally as ugg4 boots. [173] ¶ 19.5 Once he moved to the
United States, specifically in December 1979, Smith
began purchasing boots from an Australian company,
Country Leather, and reselling them in the United
States under the name Country Leather America.
[189] ¶ 5; [141] ¶ 7.6 Smith bought six pairs of sample
header placed at the top of filings, except in the case of citations to
depositions, which use the deposition transcript’s original page
number. The facts are largely taken from plaintiff’s response to
defendants’ Local Rule 56.1 statement of facts, [173], and defendants’ response to plaintiff’s LR 56.1 statement of additional facts,
[189], where the asserted fact and accompanying response are set
forth in the same document. Any document previously filed under
seal and referenced in this opinion shall be unsealed; by October
11, 2018, the parties shall file a joint statement identifying the
docket entries for unsealing or stating a basis for continued secrecy. See Baxter Int’l, Inc. v. Abbott Labs., 297 F.3d 544, 546 (7th
Cir. 2002) (“In civil litigation only trade secrets, information covered by a recognized privilege (such as the attorney-client privilege), and information required by statute to be maintained in confidence (such as the name of a minor victim of a sexual assault), is
entitled to be kept secret on appeal.”). If any filing remains under
seal, the filer must ensure there is a public version of the document
with appropriate redactions.
4

I use all capital letters (UGG) when referring to the brand
or companies Smith founded. I use lowercase letters (ugg) when
referring to sheepskin boots generally. I stray from this convention when quoting from an advertisement or other written material to accurately reflect the content of the cited source, and in those
instances, I put the term in quotation marks.
5

The additional information in Deckers’s response to Australian Leather’s statement of facts does not refute Australian Leather’s assertion, in violation of LR 56.1, and I disregard it.
6

The parties dispute whether these boots were sold under
the UGG brand or trademark. An invoice refers to the items as
“Short UGG Boot” and “Tall UGG Boot.” [154-13] at 53. Viewing

8a
boots, followed by an additional 500 pairs, which had a
sewed-on label that read, “Country Leather” and a
hang tag with the phrase, “Ugg Boots keep you Warm
& Happy.” [214] ¶ 69. Smith knew that another individual had trademarked the term “Ugh Boots” for
sheepskin boots in Australia in the early 1970s. [189] ¶
12. In early 1980, Smith applied to register UGG as a
trademark in the United States, listing December 28,
1979, as the first-use date. [214] ¶ 70; [189] ¶ 6. The
Trademark Office rejected the application because the
mark did not “serve to identify and distinguish applicant’s goods,” and Smith did not reapply. Id. In April
1980, Smith—on behalf of UGG Imports—agreed to be
the sole agent and distributor for Country Leather’s
sheepskin products in the U.S. See [141-3] at 3.7 A few
years later, Smith made a third order for about 2,200
pairs of boots. [214] ¶ 69.
In its early years, UGG Imports was just Smith
and his partner, Doug Jensen. [189] ¶ 9. In the first
year of business, both Smith and Jensen attempted to
sell UGG footwear to surf and ski shops, as well as shoe
stores. Id. Smith visited 50 surf shops that year, and
some shop owners referred to the boots as ugg boots
without prompting. Id. ¶ 10. In a speech, Smith dethe facts in the light most favorable to Australian Leather, as is
necessary when considering Deckers’s motion for summary judgment, the word may have been used in the generic sense on this
invoice, despite the all-capitals.
7

The parties dispute whether, as a result of this agreement,
Ugg Imports acquired any rights that Country Leather had in the
trademark UGG in the United States by virtue of Country Leather’s 1979 advertisements in Surfer magazine. Because the letters
themselves do not so provide, see [141-3]; [141-4], I treat this fact
as disputed and view it in Australian Leather’s favor, which is that
Ugg Imports did not acquire any rights from those advertisements.

9a
scribed his first two attempts at selling to surf-shop
owners as follows: “And the first store I walked into, I
was super nervous and really timid, and I open up the
bag, and—and the guy goes, ‘Ah, UGG boots, man.
They’re fantastic. … I got a pair. Buddy brought them
back for me.’ And next store I went to was, ‘Oh UGG
boots. Yeah my buddies have all got those. They
swear by them.’ ” Id. ¶ 11.8 Smith and Jensen had similar reactions from other shops as well. [214] ¶ 63. The
parties disagree about the extent to which shop owners
were familiar with the term ugg and whether they used
it in a generic sense. Viewing the facts in light most
favorable to Australian Leather, some shop owners
were familiar with the term and used it generically, to
refer to the style of the boots, and not in reference to
Smith’s company.
In an interview, Smith said that surfers “all knew
of UGG in some way before I even started, and that’s
really why I did it. They already had a recognition in
the surf market.” Id. ¶ 64. Though some shop owners
and surfers were familiar with the term, customers
generally were not. [189] ¶ 12. In addition to targeting
surf and ski shops, Smith and Jensen sold their products at flea markets, swap meets, farmers markets, and
from Smith’s van. Id. ¶ 9. Smith also attended ski
shows in Las Vegas, where other companies selling
sheepskin boots used the word ugg in their company
name. [173] ¶ 51.9

8

When someone spoke of the term it was not clear whether
that person was referencing the spelling ugg, ugh, or ug. Id. ¶ 12.
9

Smith did not recall seeing the specific company names that
Australian Leather asserted, and he could not recall the date of
the ski show, but he did indicate that at the shows he attended

10a
By 1983, UGG Imports had advertised in major national publications such as Surfer magazine and Action
Sport Retailer, received inquiries from over 105 retail
stores, and made 384 separate invoice sales to retailers
all over the United States. [189] ¶ 13. Deckers acquired UGG Holdings (the successor to UGG Imports)
and its UGG trademark in 1995. Id. ¶ 18. After Deckers acquired the UGG brand, it repositioned it as a luxury brand and sold its products in well-known department stores and through other third-party retailers,
along with its own UGG concept stores and online. Id. ¶
19. Deckers spent tens of millions of dollars in advertising campaigns in fashion magazines during the early
2000s, and media outlets, movies, and TV shows featured UGG products. Id. ¶¶ 22-26. The brand became a
favorite among celebrities, received various awards,
and had over $1 billion in global annual sales every year
since 2011. Id. ¶¶ 24-26. The UGG product line came to
include a wide range of footwear and apparel for men,
women, and children; handbags; accessories; and home
goods. Id. ¶ 20.
2.

Other Sheepskin Boot Retailers

Four Australian boot-suppliers testified about their
experiences selling sheepskin boots to U.S. customers.
Id. ¶ 48.10 John Arnold sold sheepskin boots (which he
referred to as ugg boots) in the U.S. in the 1960s and
early 1970s, selling thousands of pairs per week. Id. ¶
50; [204] ¶ 55. Arnold used the boots as packing materiother companies used the word ugg in their names.
122:15-123:22; [173] ¶ 51.
10

[161] at

Deckers points out that none of these individuals provided
any documentation of the sales they made. See id. Nonetheless,
their assertions are treated as true at the summary judgment
stage.

11a
al in his shipments of surfboards. [189] ¶ 51. He sold
mostly to surf shops and did not sell to mainstream
footwear shops. Id. Roger Bosley, an Australian who
was in the sheepskin business from 1973-84, traveled to
the U.S. in 1979 in hopes of selling boots, but found
Americans were not interested. [189] ¶ 53; [173] ¶ 15;
[136-21] at 16:23-19:23. A year later, Bosley opened
four retail shops in Los Angeles, which he operated for
a little under two years, where he sold sheepskin boots
under a cardboard sign that read “UGG BOOTS.” [189]
¶¶ 54-55; [173] ¶ 50.11 Bosley stated that ugg had always been a generic term in Australia. [173] ¶ 15; [13621] at 25:7-19.12 An Australian sheep slaughterer and
tanner, Peter Dorizzi, sold sheepskin boots to visiting
American sailors. [189] ¶ 57. He first attempted selling
his boots wholesale to stores in the U.S. in 1980 but was
unsuccessful. Id. In 1983, he sold “probably” 800 pairs
at the 1983 America’s Cup and then sold 40-50 leftover
pairs in California. Id. ¶ 59. Dorizzi believed that ugg
was a generic term and that all manufacturers used it
to describe sheepskin boots. [173] ¶ 13; [136-19] at 40:
2-7. Robert Hayter also tried to sell sheepskin boots at
the 1983 America’s Cup, but was unable to sell many
pairs and was disappointed in the response in America.
[189] ¶ 62. According to Hayter, the term ugg boot
11

Deckers notes that Bosley’s company catalog described the
boots as “sheepskin footwear” and did not refer to them as uggs.
But Bosley testified that he sold them under a sign labeling them
uggs, and at this stage, because his testimony is favorable to Australian Leather, and he has personal knowledge of the sign he
used, I treat it as true.
12

Contrary to Deckers’s objection, Australian Leather’s assertion that Bosley testified that ugg boots has always been a generic term in Australia is supported by cited testimony. See [13621] at 25:7-19.

12a
“didn’t mean much to [American customers] at all.” Id.
¶ 64.13
Oygur—Australian Leather’s owner—
purchased a pair of sheepskin boots as an eleven-yearold boy in Australia in 1971, and said that back then,
everyone called them ugg boots. [173] ¶ 17.
American surf-shop owners started selling sheepskin boots in their shops in the late 1960s. Terry
McKendree, who owned two surf shops in Jacksonville,
Florida in the late 1960s and early 1970s, imported
sheepskin boots from Australia to sell in his own shops.
[189] ¶ 65. McKendree also arranged sales for other
U.S. shops. [173] ¶ 49; [136-22] at 34:7-12. He first
learned about sheepskin boots during a 1969 trip to
Australia, where surfers wore them to warm their feet
after surfing in cold water. [173] ¶ 16; [214] ¶ 53. At
that time, people in Australia used the term ugg to describe the type of boots. Id. The boots McKendree sold
were marked “Made in Australia” and sold out of a bin
in his stores labeled “UGG boots.” [189] ¶ 66. At the
time he sold the boots, McKendree considered ugg to
be generic. [214] ¶ 58. McKendree placed an ad in
Surfing magazine in the February 1970 issue, advertising “Australian Sandals.” Id.; [189] ¶ 67. The ad displayed six pieces of footwear, one of which was a sheepskin boot labeled “UGG BOOT.” [189] ¶ 67. Aside from
the ad in Surfing magazine, two other pre-1979 U.S.
advertisements used the term “UGG” or “Ugg” followed by “boot”: one in a Santa Cruz newspaper (De-

13

Australian Leather asserts that Hayter testified that the
term ugg was generic in Australia, but the cited testimony does
not support this assertion. [173] ¶ 14; [136-20] at 148:5-14. Hayter
merely agreed that a document being presented to him stated that
ugg was generic; it does not show that he believed the term was
generic. Id.

13a
cember 1972),14 and one in Surfer magazine (November
and December 1979). Id. ¶ 47.15
Another surf-shop owner, Glen Kennedy, first became familiar with sheepskin boots on a trip to Australia in 1973—though he did not know if anyone referred
to them as ugg boots. Id. ¶ 70. In the early 1980s, Kennedy began selling them in his California shop—selling
around 80 pairs per year by 1986. Id. ¶ 71. After 1986,
Kennedy bought sheepskin boots from Smith, and sold
them under the UGG brand. Id. ¶ 72. Kennedy had to
explain to customers what the boots were for; only the
few customers who had traveled to Australia were familiar with them. Id. Four other individuals, who
worked in different capacities in the footwear industry,
ranging from sales clerks to the former CEO of Deckers, consistently surveyed the market and believed that
UGG had always been a brand name. Id. ¶¶ 73-77.
In 1971, Shane Stedman registered UGH-BOOTS
as a trademark in Australia for boots, shoes, and slippers, and in 1982 he registered the mark UGH for
boots, including sheepskin boots, shoes, and slippers.
Id. ¶ 79. A one-time professional surfer from Southern
California met Stedman in Australia and ordered a
hundred pairs of the boots from him but was unable to
sell them in the U.S. Id. ¶¶ 68-69. Deckers purchased
14

Deckers raises foundation and hearsay objections to the
Santa Cruz newspaper. See [214] ¶ 57. But Deckers asserts, and
Australian Leather agrees, that this issue of the newspaper referenced “UGG BOOTS.” [189] ¶ 47.
15

In addition to the Santa Cruz newspaper, [184-3], Australian Leather also relies on an Australian phonebook which uses ugg
generically, [184-7]; an article which purports to quote Smith, [1848]; and a copy of UGG’s webpage, [184-25]. But this evidence was
not properly authenticated, and I do not consider it. See Fed. R.
Evid. 901.

14a
the UGH-BOOTS trademark in 1996, and both marks
remained on the Australian register until 2006 when
they were removed for non-use. Id. ¶ 79.
Defendant Australian Leather, an Australian corporation founded in the 1990s, also manufactured
sheepskin boots and labeled them “UGG” boots. [189] ¶
2, 112; [204] ¶ 23. Adnan Oygur was its sole owner and
managing director. [189] ¶ 2. Australian Leather did
not market to the U.S., though it made sales to American consumers over the internet. Id. ¶ 112. Australian
Leather first sold footwear bearing the UGG mark to
the U.S. on October 27, 2014. Id. Its invoices reflected
33 internet orders for 42 products from American individuals between 2014-16. Id. In addition to individual
sales, American retailers contacted Oygur to inquire
about wholesale purchasing opportunities. Id. ¶ 115.
3.

Consumer Perceptions

The predominant customers of UGG boots were
women between the ages 16 to 54. Id. ¶ 20. In 2017,
Deckers commissioned a nationwide survey of 600
women in this age range who had purchased a pair of
boots or casual shoes (not including athletic shoes) in
the past 12 months or who thought they would in the
next 12 months. Id. ¶¶ 33-34. The survey included
three brand-name controls and three generic-name controls, and revealed that 98% of respondents viewed
UGG as a brand name:

15a

Id. ¶ 33. In addition to the 2017 survey, Deckers commissioned similar surveys in 2004 and 2011. Id. ¶ 34. In
2004, 58% of all respondents understood UGG to be a
brand name and in 2011, 89% of respondents did. Id.
A linguistics professor searched dictionaries and
databases—including the Corpus of Contemporary
American English, Google Books, Lexis-Nexis Academic, and the Newspaper Archive—for two relevant time
periods (1970-80 and 2009-15) for uses of the word ugg.
Id. ¶¶ 36-40. None of the sources she looked at revealed
that ugg, ug, or ugh was used generically in the footwear context. Id.16 Another linguist replicated some of
these searches and similarly found no results referring
to footwear. Id. ¶ 41. A footwear historian was asked:
from 1969-84, “what terminology was used in the United States by the footwear trade and American public
for footwear made in whole or in part of sheepskin,”
and “what was the primary significance of the term
‘UGG’ in the American footwear trade and among the
American public?” Id. ¶ 43. After conducting his own
16

Australian Leather objects to the professor’s methodology,
pointing out that one of the databases did not have entries for the
1970-79 timeframe and she did not know offhand the amount of
material some of the databases contained for the given
timeframes. See [189] ¶ 40. These objections implicate the weight
of the evidence and do not refute the underlying asserted fact that
those searches returned no relevant results.

16a
research and considering the catalogs and materials
provided to him, this historian concluded that neither
the word ugg, nor any variation of that spelling, was
used “as a generic term by the general consuming public or the footwear trade in the U.S.” Id. The historian
testified it was possible that a “tiny little group of surfers in Southern California” knew about the term ugg
apart from the brand, but noted that “[t]his small group
of surfers … doesn’t talk about the entire country,”
which was the focus of his inquiry. [214] ¶ 67; [184-10]
at 108:3-12. Prior to UGG-brand advertisements from
1979 and the early 1980s, he concluded, ugg had no significance in the footwear trade or among American consumers. [189] ¶ 43.
The Complete Footwear Dictionary, which identifies 110 types of boots and has been described as the
“most widely used and authoritative general book on
the subject of footwear,” does not mention uggs. Id. ¶
44. Other footwear companies and articles published in
the U.S. in the 1970s used terms like sheepskin, lambskin, lambswool, shearling, and genuine shearling wool
fleece, to describe similar boots. Id. ¶¶ 45-46. Deckers’s
competitors continued to use similar terms to describe
their products into 2018. [204] ¶ 6.
Australian Leather relies on a declaration and exhibits submitted during an Australian Trade Marks Office proceeding called Deckers Outdoor Corp. v. B&B
McDougall. [136-2]. The exhibits attached to the declaration include Australian telephone books, advertisements, and dictionaries using the term ugg. But the
declaration itself fails to comport with 28 U.S.C.
§ 1746(1) and is inadmissible hearsay. As a result, the
exhibits are not properly authenticated, and I do not
consider them. See Fed. R. Evid. 901. In any event, as
discussed below, even assuming Australian Leather es-

17a
tablished that ugg was generic in Australia, in part by
offering these phone books, ads, and dictionaries, it has
not linked that finding in any way to consumer perceptions in the U.S. and so considering this evidence would
not change the result here.
4.

Generic Status

Australian Leather has not shown that ugg is, or
ever has been, generic among footwear customers in
the U.S—the relevant public. Australian Leather argues that the word ugg was generic among American
surfers in the 1970s, but there is no reason to construe
the relevant public so narrowly. Sheepskin boots are
not a specialized technology that appeals only to some
limited consumer base. See Nartron Corp. v. STMicroelectronics, Inc., 305 F.3d 397, 406 (6th Cir. 2002).
Though many early customers were surfers, anyone
can purchase and wear boots (as evidenced by the shift
in UGG’s consumer-base over time). To show that ugg
is generic, Australian Leather relies on the statements
from a handful of American surfers and surf-shop owners; testimony from Australian manufacturers who sold
boots in the U.S. (including statements from Smith);
and a few advertisements. It points to no additional
evidence, surveys or otherwise, of consumer perceptions. Crediting this evidence and drawing inferences
in Australian Leather’s favor demonstrates that some
individuals used ugg generically in the past. But this is
not enough to justify the conclusion that American
footwear purchasers generally view ugg as a generic
term. Based on Deckers’s survey evidence and expert
testimony—which revealed no generic uses of ugg in
any dictionaries or databases and showed that 98% of
consumers interviewed thought ugg was a brand—no

18a
reasonable factfinder could conclude that ugg is or ever
was a generic word for sheepskin boots in the U.S.
Looking to the Australian experience does not alter
this outcome. Although evidence of how Australians
used the word ugg could be relevant to consumer perceptions in the U.S., generic usage in Australia is not
enough on its own to infer generic meaning in the United States. See G. Heileman Brewing, 873 F.2d at 1000
n.15. The foreign-equivalents doctrine does not dictate
a different analysis. See id. (citing Duncan F. Duncan,
Inc. v. Royal Tops Mfg. Co., Inc., 343 F.2d 655, 661-62
(7th Cir. 1965), and noting that the generic status of
“yo-yo” in the Philippines was not dispositive of trademark status in the United States). First, the doctrine
is not a perfect fit for English to English, and is generally used to analyze non-English terms used in the
American marketplace. 2 McCarthy on Trademarks
and Unfair Competition § 12:41 (5th ed.) (“Under the
doctrine of foreign equivalents, a word commonly used
in another language as the generic name of a product
cannot be imported into the United States and be
transformed into a valid trademark. Generic names in
languages other than English have often been held to
be generic for the American trade.”) (emphasis added).17 Second, as applied here, the doctrine is simply an
expression of the prohibition on allowing a trademark
to monopolize a generic term. Australian Leather has
evidence that ugg is generic in Australia, but there is
no evidence that Americans familiar with Australian
usage (or Australian visitors to the United States)
would be misled into thinking that there is only one
brand of ugg-style sheepskin boots available in this
17

See UGG Holdings, Inc. v. Severn, No. CV04-1137-JFW
FMOX, 2005 WL 5887187, at *6 (C.D. Cal. Feb. 23, 2005).

19a
country. Australian Leather needed to come forward
with some evidence that would allow a jury to conclude
that the term ugg has a generic meaning to buyers in
the United States; its Australian and surf-shop evidence does not suffice.
Australian Leather, through expert testimony from
an intellectual property professor at Monash University in Australia, also attempts to introduce evidence regarding the legal status of ugg in Australia. Australian
Leather retained the professor to report on whether
the word ugg (or minor variations of that term) is generic in Australia for sheepskin footwear. Deckers argues that the report is inadmissible because the legal
status of ugg in Australia is irrelevant and that the professor’s testimony is inadmissible under Rule 702 and
Daubert. Deckers also notes that whether the term
was generic in Australia in the past is outside of the
scope of the report; the professor focused his analysis
on the current legal status of the term. “In determining foreign law, the court may consider any relevant
material or source, including testimony, whether or not
submitted by a party or admissible under the Federal
Rules of Evidence.” Fed. R. Civ. P. 44.1. But the legal
status of the term in Australia is irrelevant,18 and the
legal expert is not qualified to testify about consumer
perceptions. As a result, I do not consider the report in
deciding these motions.
Even assuming the term is generic in Australia, no
reasonable jury could conclude that it is generic in the
United States.
18

For this reason, I also disregard asserted facts about
trademark law in Australia generally and about the legal status of
the word ugg in Australia. [173] ¶¶ 18, 20-28; [204] ¶¶ 3-4, 9-12. See
also footnote 2 above.

20a
B. Fraud on the Patent and Trademark Office
Australian Leather argues that Deckers’s predecessor fraudulently acquired its trademark in an UGG
ram logo, asserting both a counterclaim seeking damages caused by that fraud and an affirmative defense.19
See 15 U.S.C. §§ 1115(b)(1); 1120 (“Any person who
shall procure registration in the Patent and Trademark
Office of a mark by a false or fraudulent declaration or
representation … shall be liable in a civil action by any
person injured thereby for any damages sustained in
consequence thereof.”). Fraud in procuring a trademark “occurs when an applicant knowingly makes false,
material representations of fact in connection with an
application.” Metro Traffic Control, Inc. v. Shadow
Network, Inc., 104 F.3d 336, 340 (Fed. Cir. 1997). A
plaintiff alleging that a trademark was obtained though
fraudulent means must demonstrate fraud with clear
and convincing evidence. Money Store v. Harriscorp
Finance, Inc., 689 F.2d 666, 670 (7th Cir. 1982). A mistake in an application is insufficient. Id. at 678.
Heightened burdens of proof, such as the clear-andconvincing-evidence standard, should be considered at
the summary-judgment stage. Anderson, 477 U.S. at
255.
In December 1985, UGG Imports applied to register the following logo with the U.S. Patent and Trademark Office:

19

In its response to Deckers’s motion for summary judgment,
Australian Leather waived any fraud claims in connection with all
trademark applications aside from the ’992 application. [181] at 27.

21a

[189] ¶ 88. In the application, Smith declared that he
believed the corporation to be the owner of the mark
and that no other person had the right to use the mark.
Id. He initially listed the date of first use as December
28, 1979, but later amended that date to June 1983. Id.
¶ 89.20 Carl Brown, the attorney for UGG Imports who
prosecuted the trademark, spoke with a Trademark
Examining Attorney regarding the application. Id. ¶
91. Jody Drake, a former trademark examining attorney testified that an examiner would be required to ask
the applicant “[d]oes the term ‘UGG’ have any meaning
in a relevant trade or industry.” [184-17] at 84:1-25.
Drake concluded that because the examining attorney
reviewing UGG’s application wrote “[t]here is no significance,” Brown must have answered that there was no
meaning in the relevant industry. Id. Brown testified
that during that conversation, the examining attorney
asked him whether ugg “had any meaning in the sheepskin business as a grade or the like.” Id. ¶ 91; [154-16]
at 13:19-24. According to Brown, he replied that he
didn’t think so in the U.S., but that he thought ugg was
used to identify sheepskin boots in Australia. [189] ¶
91; [154-16] at 13:25-14:3. The UGG ram logo trade20

Australian Leather notes that Deckers amended the firstuse date after resolving a trademark lawsuit and argues Smith lied
to gain an advantage in that litigation. For reasons discussed below, whether Smith lied in this application is irrelevant.

22a
mark registered in 1987 as U.S. Trademark Registration No. 1,460,992. [189] ¶ 90; [173] ¶ 30. Deckers did
not renew the ’992 registration, and it expired in 2008.
[189] ¶ 90.
Australian Leather alleges that both Smith and
Brown made material misrepresentations in this application. Australian Leather asserts that Smith purposefully gave the wrong first-use date to gain an advantage in a separate lawsuit and lied when saying his
company had the exclusive right to the mark when he
knew the word ugg was generic. Brown lied to the examining attorney, Australian Leather asserts, when
saying ugg had no significance in the relevant industry.21 But because the ’992 trademark expired in
2008—six years before Australian Leather’s entry into
the U.S. market—Australian Leather has failed to establish that it sustained any damages from Deckers’s
alleged fraud. See 15 U.S.C. § 1120.
Australian Leather argues that had Brown (both
parties focus on Brown’s statements) told the truth in
the application, and disclosed that ugg was a generic
term in Australia, the examining attorney would have
placed a disclaimer on the word UGG in the mark,
which would have signaled the mark’s generic status in
future applications and prevented UGG from obtaining
a trademark in the word itself. Australian Leather’s
theory is inconsistent with the law. Even assuming
that with full disclosure, the examining attorney would
21

As evidence that Brown made this statement knowing it
was false, Australian Leather points to a supposedly contradictory
statement Brown made in a deposition for the Severn lawsuit and
to Drake’s expert testimony that Brown must have told the examining attorney there was no relevant meaning to the term in the
industry to have the trademark issued without a disclaimer attached to the word UGG.

23a
have attached a disclaimer to UGG in the ram logo, it
does not follow that the word ugg is generic. And because it is not generic to the relevant consumers in the
U.S., Deckers may rightfully own its subsequent
trademarks. Australian Leather cannot attribute any
harm it has suffered from Deckers’s ownership rights
to the ’992 trademark as opposed to any other. And
even if all Deckers’s trademark registrations were subject to cancellation based on fraudulent procurement, it
would still have its common-law ownership rights. See
Specialized Seating, Inc. v. Greenwich Industries, 616
F.3d 722, 728 (7th Cir. 2010) (holding that cancellation
of a trademark’s registration does not “affect the
mark’s validity, because a trademark need not be registered to be enforceable”). Any damages Australian
Leather suffered from Deckers’s trademarks cannot be
attributed to any fraud associated with the ’992 trademark, and without damages, Australian Leather’s
counterclaim fails.
Deckers does not allege that Australian Leather
violated the ’992 trademark (nor could it, since the
mark has expired), so the alleged fraud would not be an
affirmative defense to the claims in this case. See 15
U.S.C. § 1115(b)(1) (providing that a plaintiff’s right to
use a registered mark is subject to the defense that
“the registration or the incontestable right to use the
mark was obtained fraudulently.” (emphasis added)).
Any fraudulent procurement of the ’992 mark had no
impact on Australian Leather, and so it cannot recover
for that fraud or use it as a defense.
C. False Designation of Origin
Australian Leather alleges that Deckers falsely
represents that its boots are made in Australia in violation of the Lanham Act, the Illinois Uniform Deceptive

24a
Practices Act, and the Illinois Consumer Fraud Act. To
prevail on a claim under any of these theories, a plaintiff must show that the defendant made a deceptive or
misleading statement. 15 U.S.C. § 1125; 815 ILCS
510/2; 815 ILCS 505/2.
From 1979-85, UGG Imports manufactured all its
footwear in Australia. [189] ¶ 99. It began sourcing
some footwear through a New Zealand factory in the
late 1980s, though most UGG footwear sold through
1995 was made in Australia. Id. As the brand grew,
UGG moved its manufacturing to China, Vietnam, and
elsewhere, though it continued to source most of its
sheepskin from Australia. Id. While Deckers has continually marketed its footwear reflecting the brand’s
Australian heritage, it also expanded its product line to
include non-heritage products, and in 2015, Deckers rebranded from UGG Australia to UGG. Id. ¶ 21.
Australian Leather argues that it is deceptive to
use the slogan UGG Australia when the boots are not
manufactured in Australia, but Deckers accurately labels the inside of each pair of boots with the country of
manufacture. Id. ¶ 98. And at least in recent years,
Deckers has displayed country of origin labeling on all
footwear boxes and on its website. Id. When determining whether a statement is deceptive or misleading,
a court considers the statement in context, viewing the
product as a whole. See Pernod Ricard USA, LLC v.
Bacardi U.S.A., Inc., 653 F.3d 241, 250-51 (3rd Cir.
2011). The UGG Australia label does not state that the
boots were made in Australia. And because every pair
of boots with that label also contains a more specific
country of origin label, no reasonable juror could conclude that Deckers deceptively marketed its boots as
being made in Australia.

25a
D. False Statements on Ugg’s Website
Australian Leather also alleges that Deckers made
false or misleading statements about Australian Leather on the UGG website in violation of the Lanham Act,
15 U.S.C. § 1125. On its website, Deckers educated
other retailers and consumers about its rights in the
UGG brand and trademark and maintained an anticounterfeiting education page. [189] ¶ 32. The website
also contained a search function which allowed consumers to look-up online retailers to see if they were authorized dealers of UGG-brand products. Id. ¶ 107. If
the tool did not recognize the searched term as an authorized dealer, it generated the message: “[the
searched term] isn’t known to our database and cannot
be verified as an authorized retailer. This may be a site
that deals in counterfeit products.” Id. Deckers maintained another webpage titled “UGG® is a Brand,”
which contained information about the UGH trademark
in Australia and stated that “[s]ome Australian companies … otherwise circulate misinformation regarding
the UGG mark.” See [214] ¶ 83. None of Deckers’s
counterfeit-education webpages mentioned Australian
Leather. [189] ¶ 105.
Australian Leather argues that the search function
results misrepresent that it deals in counterfeit products. But when a customer types “Australian Leather”
into the site, the tracker generates the same form message that it would for any unrecognized term. Australian Leather also asserts that the information explaining
the dangers of counterfeit goods misleads consumers by
improperly linking Australian Leather to those dangers. But Deckers never mentions Australian Leather
by name, and there is no reason that a consumer would
conclude that those statements were about Australian
Leather. Further, for the reasons discussed, it is not

26a
false or misleading for Deckers to say that the word
ugg is not generic in the U.S. Because the statements
Australian Leather points to were not false, and because they do not mention Australian Leather, Australian Leather cannot prevail on its fraud claims.
E. Unclean Hands
Australian Leather asserts that Deckers should be
barred by the doctrine of unclean hands from enforcing
its trademarks based on its predecessor’s abuse of the
® symbol. Deckers owns eleven U.S. trademark registrations that contain the UGG mark. [189] ¶ 94. In May
1996, UGG (at that point UGG Holdings) received a
U.S. Trademark Registration for the text word UGG
for footwear and other goods. [173] ¶ 31. Though it did
not own a trademark in the word UGG before 1996, id.
¶ 32; [136-1] ¶¶ 123-26, Smith and his companies used
the ® symbol next to the word UGG in various advertisements and documents. [173] ¶¶ 33-48.22 Smith considered his trademark to be for UGG and thought he
was legally required to use the ® symbol next to it.
[204] ¶ 26. To Smith’s knowledge, none of his companies received a complaint about improper use of the ®
symbol. Id. ¶ 27. Based on this testimony, Deckers
disputes that the alleged misconduct was willful.
Australian Leather uses the ® symbol next to its
name as well, and it has never applied for a trademark
registration. [204] ¶¶ 28-29. Deckers argues that Australian Leather’s own misuse precludes it from relying
on the unclean-hands doctrine. See Leo Feist, Inc. v.
22

Deckers raises objections about some of these examples,
disputing whether the purported publication date is accurate. It
does not deny, however, that it used the ® symbol before 1996.
See [173] ¶¶ 33, 36, 39, 41-47.

27a
Young, 138 F.2d 972, 975 (7th Cir. 1943) (discussing the
doctrine of unclean hands and noting that “if the defendant has been guilty of conduct more unconscionable
and unworthy than that of the plaintiff, the rule may be
relaxed”). Because there are genuine disputes of material facts as to the requisite intent and the degree of
culpability of both parties, summary judgment is inappropriate.
F. Damages
Australian Leather estimates, relying on Oygur’s
calculations, that if Deckers did not own or enforce its
trademarks, Australian Leather would have sold 75,000
pairs of boots (60,000 short boots and 15,000 long boots)
annually to wholesalers in the United States from 200816. [189] ¶ 111; [154-11] at 78. He also estimates the
wholesale prices for which Australian Leather could
have sold those boots to American retailers. Id. Oygur
bases these estimates on his own experiences; he did
not do any test sales, studies, or surveys to determine
the American demand for the product. [189] ¶ 113.
While the accuracy and precision of Oygur’s calculations may be questioned, they are based on his personal
knowledge of the industry and not so speculative as to
entitle Deckers to summary judgment on the issue.
III. Conclusion
Deckers’s motion for partial summary judgment is
granted with respect to Australian Leather’s claims
based on fraud, generic status, and the foreign equivalents doctrine. The motion as to Australian Leather’s
damages calculation is denied. Australian Leather’s
motion is denied. Deckers’s motion for summary judgment, [137], is granted in part, denied in part. Australian Leather’s motion, [130], is denied.

28a
ENTER:
Signature
Manish S. Shah
United States District Judge
Date: September 13, 2018

29a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Case No. 16-cv-03676
DECKERS OUTDOOR CORPORATION,
Plaintiff,
v.
AUSTRALIAN LEATHER PTY LTD and
ADNAN OYGUR a/k/a EDDIE OYGUR,
Defendants.
Filed February 6, 2020
Judge Manish S. Shah
FINAL JUDGMENT AND
PERMANENT INJUNCTION
Plaintiff/Counter-Defendant Deckers Outdoor Corporation (“Deckers”) filed this action against Defendant/Counter-Claimant Australian Leather Pty. Ltd.
(“Australian Leather”) and Defendant Adnan “Eddie”
Oygur (“Oygur”) (collectively, “Defendants”) asserting
infringement of its UGG trademark and U.S. trademark registration No. 3,050,925 therefor (Deckers’ federal and common law rights in and to the UGG trademark are referred to hereinafter as the “UGG Trademark”), common law CARDY™ trademark (the
“CARDY Trademark”), and design patent Nos.
D599,999, D616,189, D582,650 and D705,529 (“Deckers’

30a
Design Patents”). Specifically, Deckers’ Amended
Complaint [26] alleges infringement of Deckers’ UGG
Trademark under the Lanham Act, 15 U.S.C. §§ 1114,
1125 (Count I), unfair competition and false designation
of origin of Deckers’ UGG and CARDY Trademarks
under the Lanham Act, 15 U.S.C. § 1125(a) (Count II),
infringement of United States Design Patent No.
D599,999 (Count III), infringement of United States
Design Patent No. D616,189 (Count IV), infringement
of United States Design Patent No. D582,650 (Count
V), infringement of United States Design Patent No.
D705,529 (Count VI), violation of the Illinois Uniform
Deceptive Trade Practices Act, 815 ILCS §§ 510, et seq.
(Count VII), common law trademark infringement of
Deckers’ CARDY Trademark (Count VIII), and common law trademark infringement Deckers’ UGG
Trademark (Count IX). [26]. Defendants answered
and asserted affirmative defenses alleging, inter alia,
invalidity, unenforceability and non-infringement of
Deckers’ UGG and CARDY Trademarks and Design
Patents. [28, 55]. Australian Leather asserted thirteen
counterclaims. [53].
This Court granted-in-part Deckers’ motion for
partial summary judgement pursuant to Fed. R. Civ. P.
56(a). [219].
Deckers and Defendants have stipulated that each
of Deckers’ Design Patents is valid, enforceable, and
infringed by Defendants. [237].
Deckers and Defendants have stipulated that
Deckers’ CARDY Trademark is valid, enforceable, and
infringed by Defendants and that Defendants’ use of
the CARDY trademark in commerce constitutes (a) unfair competition and false designation of origin under
15 U.S.C. § 1125(a), and (b) a violation of the Illinois

31a
Uniform Deceptive Trade Practices Act, 815 ILCS
§§ 510, et seq. [237].
Deckers and Defendants have further stipulated
that Defendants’ liability concerning the common law
UGG trademark under Deckers’ Amended Complaint
[26] Count II (15 U.S.C. § 1125(a)), Count VII (Illinois
Uniform Deceptive Trade Practices Act), and Count IX
(common law trademark infringement) stands or falls
with Defendants’ liability under Deckers’ trademark
infringement Count I (UGG® federal trademark infringement). [238].
On May 10, 2019, following a four-day jury trial, the
jury returned a verdict in favor of Deckers finding that
Defendants Australian Leather and Oygur each willfully infringed Deckers’ UGG and CARDY Trademarks
and each willfully counterfeited Deckers’ UGG Trademark. The jury awarded statutory damages against
Defendants and recoverable by Deckers for willful
trademark counterfeiting in the amount of $450,000.
[270, 271].
Defendants’ unclean hands defense ([28] and [55],
8th Affirmative Defense) and counterclaim ([53], Count
I, ¶ 64(c), asserted by Counterclaimant Australian
Leather only), and Deckers’ claim of willful patent infringement were tried to the Court on May 10, 2019.
On December 19, 2019, the Court entered an Order in
favor
of
Deckers
and
against
Defendants/Counterclaimant on Defendants’ unclean hands
defense and Counterclaimant Australian Leather’s
counterclaim. [286, 287].
IT IS HEREBY ORDERED that judgment is entered in favor of Deckers and against Defendants on all
Counts I – IX of the Amended Complaint [26], and further that judgment is entered in favor of Deckers and

32a
against Australian Leather on all Counts I – XIII of
Australian Leather’s Counterclaims [53].
IT IS FURTHER ORDERED that:
1. Pursuant to 15 U.S.C. § 1117(c)(2), Plaintiff is
awarded statutory damages in the amount of $450,000
for willful counterfeiting of Deckers’ registered UGG
Trademark, for which damages Defendants are jointly
and severally liable.
2. Defendants and their officers, agents, servants,
employees and attorneys, and all other persons who are
in active concert or participation with any of the foregoing, are hereby permanently enjoined and restrained
from:
a.

Using, or inducing or enabling others to use,
the UGG mark or designation, or any reproduction, counterfeit, copy, or colorable imitation
thereof, in any manner and in any format, case
or spelling, on or in connection with the sale, offering for sale, distribution, or advertising of
any product in the United States or its territories;

b. Using, or inducing or enabling others to use,
the CARDY mark or designation, or any reproduction, counterfeit, copy, or colorable imitation thereof, in any manner and in any format,
case or spelling, on or in connection with the
sale, offer for sale, distribution, or advertising
of any product in the United States or its territories;
c.

passing off or falsely designating, or inducing
or enabling others to pass off or falsely designate, any product in United States commerce
as an UGG or CARDY product or as a product

33a
produced by, originating from, or authorized by
Deckers;
d. committing any acts, or inducing or enabling
others to commit any acts, calculated to cause
consumers in the United States or its territories to believe that Defendants’ products are
sold under the authorization, control or supervision of Deckers, or are sponsored by, approved by, or otherwise connected or associated with Deckers;
e.

shipping, exporting, importing, delivering,
holding for sale, transferring or otherwise moving, storing, distributing, returning, or disposing of, in any manner, products or inventory
that satisfy all three of the following conditions:
(i) they are neither manufactured by or for
Deckers nor authorized by Deckers, (ii) they
are to be distributed, marketed, advertised, offered for sale, or sold in United States commerce, and (iii) they bear, or are distributed,
marketed, advertised, offered for sale or sold in
connection with, any UGG or CARDY Trademarks or any reproduction, counterfeit, copy or
colorable imitation thereof;

f.

offering for sale or selling in, exporting to,
and/or importing into United States commerce
any products not authorized by Deckers and
that include any reproduction, copy or colorable
imitation of the designs claimed in Deckers’
Design Patents until the expiration of the applicable patent(s); and

g. aiding, abetting, contributing to, enabling, inducing, or otherwise assisting others in infring-

34a
ing Deckers’ Design Patents until the expiration of the applicable patent(s).
3.

Defendants and their officers, agents, servants,
employees, attorneys, and all other persons who
are in active concert or participation with any of
them, shall immediately and permanently cease use
of all marketing, promotional, and other materials
(whether physical or electronic) bearing the designation “UGG” or “Cardy”, in any format, case or
spelling, as, or as part of, a trademark, service
mark, trade name, label, or product name, description or designation in or intentionally directed to
the United States or its territories. Defendants
shall use available geo-blocking or geo-fencing
technology to prevent marketing, promotional, and
other social media posts or communications bearing
the designation “UGG” or “Cardy”, in any format,
case or spelling, as, or as part of, a trademark, service mark, trade name, label, or product name, description or designation from reaching the United
States or its territories.

4.

As the prevailing party, Deckers is awarded its
costs pursuant to Fed. R. Civ. P. 54(d)(1).

This is a Final Judgment against Defendants.
DATED: February 6, 2020 [handwritten signature]
Manish S. Shah
United States District Judge

35a
APPENDIX D
RELEVANT STATUTORY PROVISIONS
15 U.S.C. § 1064
§1064. Cancellation of registration
A petition to cancel a registration of a mark, stating
the grounds relied upon, may, upon payment of the prescribed fee, be filed as follows by any person who believes that he is or will be damaged, including as a result of a likelihood of dilution by blurring or dilution by
tarnishment under section 1125(c) of this title, by the
registration of a mark on the principal register established by this chapter, or under the Act of March 3,
1881, or the Act of February 20, 1905:
(1) Within five years from the date of the registration of the mark under this chapter.
(2) Within five years from the date of publication under section 1062(c) of this title of a mark registered under the Act of March 3, 1881, or the Act
of February 20, 1905.
(3) At any time if the registered mark becomes
the generic name for the goods or services, or a
portion thereof, for which it is registered, or is
functional, or has been abandoned, or its registration was obtained fraudulently or contrary to the
provisions of section 1054 of this title or of subsection (a), (b), or (c) of section 1052 of this title for a
registration under this chapter, or contrary to similar prohibitory provisions of such prior Acts for a
registration under such Acts, or if the registered
mark is being used by, or with the permission of,
the registrant so as to misrepresent the source of

36a
the goods or services on or in connection with
which the mark is used. If the registered mark becomes the generic name for less than all of the
goods or services for which it is registered, a petition to cancel the registration for only those goods
or services may be filed. A registered mark shall
not be deemed to be the generic name of goods or
services solely because such mark is also used as a
name of or to identify a unique product or service.
The primary significance of the registered mark to
the relevant public rather than purchaser motivation shall be the test for determining whether the
registered mark has become the generic name of
goods or services on or in connection with which it
has been used.
(4) At any time if the mark is registered under
the Act of March 3, 1881, or the Act of February 20,
1905, and has not been published under the provisions of subsection (c) of section 1062 of this title.
(5) At any time in the case of a certification
mark on the ground that the registrant (A) does
not control, or is not able legitimately to exercise
control over, the use of such mark, or (B) engages
in the production or marketing of any goods or services to which the certification mark is applied, or
(C) permits the use of the certification mark for
purposes other than to certify, or (D) discriminately refuses to certify or to continue to certify the
goods or services of any person who maintains the
standards or conditions which such mark certifies:
Provided, That the Federal Trade Commission may apply to cancel on the grounds specified in paragraphs (3)
and (5) of this section any mark registered on the principal register established by this chapter, and the pre-

37a
scribed fee shall not be required. Nothing in paragraph
(5) shall be deemed to prohibit the registrant from using its certification mark in advertising or promoting
recognition of the certification program or of the goods
or services meeting the certification standards of the
registrant. Such uses of the certification mark shall not
be grounds for cancellation under paragraph (5), so long
as the registrant does not itself produce, manufacture,
or sell any of the certified goods or services to which its
identical certification mark is applied.

